                                     Closeout of Case M 99080040



        We received an allegation of intellectual theA and violation of peer review of a
proposal for federal funding by an NSF-hnded researcher' (the "subject"). According to
the complainant,* the subject obtained confidential material regarding a genetic sequence
of a particular protein that was described in one of his proposals.3 In this proposal, the
complainant disclosed new infonnation about the structure of a certain protein and its
homologues. He alleged that the subject had access to the proposal as a reviewer, and
that the subject used confidential information in the proposal to identify a clone identical
in sequence to the subject's homologue. The subject published her results4before the
complainant was able to publish, and the subject did not include any reference to the
complainant's research.

       The complainant had requested that the journal editor review this matter. We
learned that the journal editor discussed this matter with the subject and an addendum5to
the paper was published in the same journal volume as the complainant's paper. The
addendum provided a logical explanation of the linkages between the complainant's and
the subject's work and also provided the complainant with credit for the genetic
sequence. In the addendum, the subject explained that she used a series of computerized
searches of a public database to gather the information she needed. The addendum further
explained that her search was facilitated by infonnation provided at a conference
presentation by a colleague of the complainant. The addendum provided more detail
about how the subject's research was conducted and stated that information provided at
the conference by the complainant's colleague triggered the research that led to their
discovery.

       Although the subject did have access to the complainant's proposal, we found the
subject's explanation and the journal editor's actions to be reasonable.

         Therefore, this inquiry is closed and no further action will be taken on this case.



CC: IG, Integrity




response to a letter to the editor from the complainant.


Note to File                                     Page 1 of 1
